HHS/OIG, Audit -"Audit of Medicare Costs for Organ Acquisitions at Tampa General Hospital,"(A-04-02-02017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Costs for Organ Acquisitions at Tampa General Hospital," (A-04-02-02017)
April 17, 2003
Complete
Text of Report is available in PDF format (1.36 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the costs claimed by Tampa General Hospital (TGH) were properly stated
in accordance with the Medicare reimbursement criteria.  Our review focused on the organ acquisition costs claimed
by TGH totaling $7,001,918 on the Medicare cost report for fiscal year (FY) ending September 30, 1999.  The Medicare
reimbursement for organ acquisition costs in FY 1999 was overstated by $1,459,070.  The majority of the excess reimbursement
was the cumulative result of TGH overstating the direct costs for kidney and liver acquisition and understating the direct
costs for heart acquisitions on the cost report.  We recommended that TGH file an amended cost report for FY 1999
to incorporate these adjustments and reduce its claim for Medicare reimbursement by $1,459,070.  We also recommended
that TGH establish procedures and accounting controls to assure the proper reporting of organ acquisition costs allocated
to Medicare.  In addition, we recommended that TGH review its cost reports for subsequent years and file amended cost
reports as necessary to ensure that the cost reports are free of the types of errors identified during our audit.